Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Alameda Police Department, California
GR-90-00-010
December 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Alameda Police Department, (APD). The purpose of the grant is to enhance community policing.  The APD was awarded a total of $966,387 to hire 9 full-time officers to perform community policing duties.

We reviewed the APD's compliance with seven essential grant conditions.  We found the grantee's budgeting, local match, retention, community policing, and grant reporting practices to be acceptable.  However, we found weaknesses in two other areas, as identified below.  As a result, we question $68,243 and recommend an additional $361,264 be put to better use. 1

We questioned a total of $68,243 (federal share) of the costs charged to the grant.  The questioned costs consisted of both unallowable fringe benefit expenditures ($8,045) and cost in excess of approved grant limitations ($60,198).  The unallowable fringe benefit expenditures included uniform allowance, equipment pay, and incentive pay.  In addition, the APD was reimbursed $597,078 for the salary and benefits of 5 officers, which was greater than the approved amount of $536,880.

	The APD informed the COPS program of its decision to modify the Phase I grant by hiring only 5 of the 9 officers authorized.  The APD made this decision because it could not provide the necessary matching funds.  Therefore, the COPS program should deobligate $361,264 for the four positions the APD decided not to fill under this grant and put the funds to better use.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.